No.
IN THE SUPREME COURT OF THE UNITED STATES

ALAN SINGER, Applicant/Petitioner
V.
MONDEX CORPORATION, Respondent

CERTIFICATE OF SERVICE
Pursuant to this Court's Rule 29, the undersigned, Alan Singer,
Applicant/ /Petitioner/in Pro Se, delivered three (3) TRUE COPIES, all with
ORIGINAL signatures, of his Application for Extension of Time to File Petition for
Writ of Certiorari to a third party commercial carrier on this o7 874 day of January,
2020 for delivery via UPS 2nd Day Air expedited delivery to:
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
and the undersigned delivered three (3) TRUE COPIES, with original signatures, of
his Application for Extension of Time to File Petition for Writ of Certiorari to a
third party commercial carrier on this .0?
day of January, for delivery via UPS for
two-day delivery to:
Anthony J. Mullan, Esq.
The Mullan Law Firm, P.C.
1355 Ramar Road, Suite 19
Bullhead City, Arizona 86442
Counsel for Respondent, Mondex Corporation

Dated this dzilday of January, 2020

By:
Alan Singer
6

Additional material
from. this filing is
available in the .,
Clerk's Office.

